<html>
<title> - ARE WE READY? RECOVERING FROM 2017 DISASTERS AND PREPARING FOR THE 2018 HURRICANE SEASON</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
ARE WE READY? RECOVERING FROM 2017 DISASTERS AND PREPARING FOR THE 2018 
                            HURRICANE SEASON

=======================================================================

                                (115-49)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 18, 2018

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
             
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
            
             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
     
     
     
                          ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 38-032  PDF            WASHINGTON : 2019

               
     
     
     
     
                             transportation
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                             Columbia
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ALBIO SIRES, New Jersey
THOMAS MASSIE, Kentucky              JOHN GARAMENDI, California
MARK MEADOWS, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
SCOTT PERRY, Pennsylvania                Georgia
RODNEY DAVIS, Illinois               ANDRE CARSON, Indiana
MARK SANFORD, South Carolina         RICHARD M. NOLAN, Minnesota
ROB WOODALL, Georgia                 DINA TITUS, Nevada
TODD ROKITA, Indiana                 SEAN PATRICK MALONEY, New York
JOHN KATKO, New York                 ELIZABETH H. ESTY, Connecticut, 
BRIAN BABIN, Texas                       Vice Ranking Member
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
BARBARA COMSTOCK, Virginia           CHERI BUSTOS, Illinois
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
DOUG LaMALFA, California             DONALD M. PAYNE, Jr., New Jersey
BRUCE WESTERMAN, Arkansas            ALAN S. LOWENTHAL, California
LLOYD SMUCKER, Pennsylvania          BRENDA L. LAWRENCE, Michigan
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
JOHN J. FASO, New York               STACEY E. PLASKETT, Virgin Islands
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota
MIKE GALLAGHER, Wisconsin
                                ------                                

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

                  LOU BARLETTA, Pennsylvania, Chairman
ERIC A. ``RICK'' CRAWFORD, Arkansas  DINA TITUS, Nevada
BARBARA COMSTOCK, Virginia           HENRY C. ``HANK'' JOHNSON, Jr., 
MIKE BOST, Illinois                      Georgia
JOHN J. FASO, New York               ELEANOR HOLMES NORTON, District of 
A. DREW FERGUSON IV, Georgia,            Columbia
  Vice Chair                         ALBIO SIRES, New Jersey
BRIAN J. MAST, Florida               STACEY E. PLASKETT, Virgin Islands
MIKE GALLAGHER, Wisconsin            PETER A. DeFAZIO, Oregon (Ex 
BILL SHUSTER, Pennsylvania (Ex           Officio)

    Officio)
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               WITNESSES

Jeffrey Byard, Associate Administrator, Office of Response and 
  Recovery, Federal Emergency Management Agency:

    Testimony....................................................     6
    Prepared statement...........................................    36
    Responses to questions for the record from the following 
      Representatives:

        Hon. Lou Barletta of Pennsylvania........................    43
        Hon. Peter A. DeFazio of Oregon..........................    51
        Hon. Eric A. ``Rick'' Crawford of Arkansas...............    73
        Hon. Stacey E. Plaskett of the Virgin Islands............    76
        Hon. Garret Graves of Louisiana..........................    82
        Hon. Nydia M. Velazquez of New York......................    88
Charles R. Alexander, Jr., Director of Contingency Operations and 
  Homeland Security, U.S. Army Corps of Engineers:

    Testimony....................................................     6
    Prepared statement...........................................    91
    Responses to questions for the record from the following 
      Representatives:

        Hon. Lou Barletta of Pennsylvania........................    97
        Hon. Peter A. DeFazio of Oregon..........................    98
        Hon. Brian J. Mast of Florida............................   102
        Hon. Nydia M. Velazquez of New York......................   104
Patrick Sheehan, Director, Tennessee Emergency Management Agency, 
  on behalf of the National Emergency Management Association:

    Testimony....................................................     6
    Prepared statement...........................................   105
Mistie Gardner, CEM, Emergency Management Coordinator, city of 
  Richardson, Texas, on behalf of the U.S. Council of the 
  International Association of Emergency Managers:

    Testimony....................................................     6
    Prepared statement...........................................   115
Hon. Robert David Paulison, Former Administrator, Federal 
  Emergency Management Agency, on behalf of the BuildStrong 
  Coalition:

    Testimony....................................................     6
    Prepared statement...........................................   121
    Questions for the record for Mr. Paulison from Hon. Stacey E. 
      Plaskett of the Virgin Islands.............................   128

                       SUBMISSIONS FOR THE RECORD

``Rollover of Disaster Management Costs: Increasing Capability 
  and Responsibility in Managing Disaster Declarations,'' 
  submitted by Patrick Sheehan, Director, Tennessee Emergency 
  Management Agency, on behalf of the National Emergency 
  Management Association.........................................   114
Letter of April 20, 2018, from Kenneth E. Mapp, Governor of the 
  U.S. Virgin Islands, to Hon. William ``Brock'' Long, 
  Administrator, Federal Emergency Management Agency, submitted 
  by Hon. Stacey E. Plaskett of the U.S. Virgin Islands..........   129

                        ADDITIONS TO THE RECORD

Letter of July 18, 2018, from the North American Concrete 
  Alliance, to Hon. Bill Shuster, Chairman, Committee on 
  Transportation and Infrastructure et al., submitted by Hon. Lou 
  Barletta of Pennsylvania.......................................   135
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  



ARE WE READY? RECOVERING FROM 2017 DISASTERS AND PREPARING FOR THE 2018 
                            HURRICANE SEASON

                              ----------                              


                        WEDNESDAY, JULY 18, 2018

                  House of Representatives,
              Subcommittee on Economic Development,
        Public Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10 a.m., in room 
2167, Rayburn House Office Building, Hon. Lou Barletta 
(Chairman of the subcommittee) presiding.
    Mr. Barletta. The committee will come to order. Without 
objection, the Chair is authorized to declare a recess at any 
time.
    Before we begin, I ask unanimous consent that Members not 
on the subcommittee be permitted to sit with the subcommittee 
at today's hearing and ask questions.
    Without objection, so ordered.
    From hurricanes to floods and wildfires, no region of our 
country was immune from the impacts of last year's disasters. 
Last year we saw 10 hurricanes in the Atlanta region alone, 
including Hurricanes Harvey, Irma, and Maria, which devastated 
parts of Texas, Florida, Puerto Rico, and the U.S. Virgin 
Islands.
    We also had one of the worst wildfire seasons on record 
with over 66,000 wildfires that burned nearly 10 million acres 
of land. Disasters caused an estimated $370 billion in damages 
in 2017. The purpose of today's hearing is to determine where 
we are in recovering from these devastating disasters, 
including challenges to recovery and suggestions on how we can 
overcome those challenges.
    We also want to understand State, local, and Federal 
efforts to prepare for and respond to the 2018 hurricane 
season, which began on June 1st. Additionally, we will discuss 
reforms that are needed to incentivize and encourage mitigation 
and the reduction of disaster costs and losses across the 
country.
    The 2017 disaster season not only devastated many 
communities, but also highlighted challenges in how we respond 
to and recover from disasters. We have a ways to go in 
rebuilding, especially in Puerto Rico and the U.S. Virgin 
Islands. And it is critical, we do what we can to help 
communities rebuild smarter and better. In November, this 
committee came together to craft bipartisan legislation, the 
Disaster Recovery Reform Act, which would allow communities to 
rebuild in a way that would minimize future disaster costs and 
save lives.
    This legislation includes reforms that will change FEMA's 
[Federal Emergency Management Agency's] disaster recovery 
programs to make them more effective and efficient, and 
encourage and facilitate mitigation projects that reduce 
disaster risks and increase resiliency against disasters. This 
legislation has now overwhelmingly passed the House twice, 
including in H.R. 4, the FAA Reauthorization Act, which has yet 
to be taken up by the Senate.
    There are communities impacted by the 2017 disasters, and 
preparing for future disasters, that would benefit today from 
the reforms in DRRA [Disaster Recovery Reform Act]. Some 
reforms were signed into law as part of the Bipartisan Budget 
Act of 2018. Those reforms allow FEMA to create incentives for 
State and local governments to implement mitigation. But we 
need the other critical reforms, including, key wildfire 
mitigation provisions and additional resources to State and 
local governments for cost-effective mitigation projects.
    Various studies by Federal agencies, academia, and the 
private sector have shown that for every $1 of Federal 
investment in mitigation, there is a $4 to $8 return in avoided 
disaster damages. Mitigation projects, particularly 
predisaster, are a wise investment of Federal dollars, and the 
only way we, as a Nation, will be able to change the direction 
of rising disaster costs and losses. It makes no sense for us 
to continue to rebuild the same way, disaster after disaster.
    I look forward to hearing from our witnesses today on where 
we are in the recovery from the 2017 disaster season, where we 
are in preparing for the 2018 hurricane season, and the 
recommendations for changes that need to be made to make our 
communities stronger and better able to recover from disasters 
of any kind.
    Thank you all for being here.
    I now recognize the ranking member of the full committee, 
Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Thanks for holding 
this important hearing on recovery efforts from 2017 and 
looking forward to the 2018 season. We already have fires 
burning in the West, and it is going to be another bad fire 
year, and we don't know what will happen with hurricanes.
    On Friday, we finally got FEMA's ``After-Action Report'' on 
2017. They admitted in that report what everyone knew, the 
Agency's response was inadequate, to put it mildly, and in the 
case of Puerto Rico and the Virgin Islands, outrageously 
inadequate. They admit that they did not pre-position enough 
commodities, such as food, water, generators, before Irma and 
Maria struck the Virgin Islands and Puerto Rico. They 
acknowledged they experienced delays in delivering supplies to 
territories, despite the fact that in 2014 they led a national 
level exercise indicating that delays could be a problem during 
a disaster and should be addressed. That is 3 years before 
these disasters.
    President Trump, living in a different reality, ignored the 
obvious failures in the response efforts occurring on the 
ground. He called it fake news. And then he went to Puerto Rico 
and bragged about what a great job they had done and threw 
paper towels at people. He put lives at risk and people died 
after his visit, who should have been receiving assistance. 
That his boorish behavior went beyond to attacking a mayor of 
San Juan who was representing her people who were suffering 
horribly.
    And then the FEMA Administrator, to his discredit, Brock 
Long, did the same thing, although later he admitted that that 
was inappropriate. Trump never did admit that. FEMA 
acknowledged its failures, but it was also, as it was 
acknowledging its failures, it had other people on staff busy 
eradicating any trace of any consideration of climate change in 
its strategic planning. Now, that is going to work out real 
well, isn't it? So we got to pay attention to things that are 
important.
    Then FEMA found, you know, that it also needs to 
collaborate more with State, Tribal, Territorial, local 
governments, but President Trump proposed cutting five 
preparedness grants in his budget by $471 million, or 29 
percent, and proposed reducing funding for education, training, 
and exercises by $129 million, or 47 percent. What is going on 
here? Are we going to take this seriously or not?
    And throughout the ``After-Action Report,'' FEMA discussed 
the need to make the Nation more resilient to disasters, 
however, the administration again rescinded an existing 
Executive order, because Obama did it, establishing a Federal 
flood risk management standard, i.e., we are not going to build 
any federally funded facility in a flood-prone area. Or if we 
do build in those areas, special construction techniques would 
be used to protect the structure, the contents, and the 
personnel.
    Now, that has been eliminated. We are not going to consider 
those sorts of thing because we don't believe in climate 
change, and I guess we don't even believe in natural disasters 
or 100-year floods anymore. And then FEMA also mentioned the 
importance of predisaster mitigation, while the President 
proposed cutting funding for predisaster mitigation by 61 
percent, down from an inadequate $100 million to an absolutely 
pathetic $39 million, which could probably be spent in any one 
potentially targeted city in terms of hurricanes, very well, 
and mitigate a lot of loss.
    So while FEMA's ``After-Action Report'' identifies specific 
improvements needed, including the need for more preparedness, 
mitigation, resilient rebuilding, the President in his budget 
says, no, none of that, we don't want that. So we, here in 
Congress, have a responsibility to move forward, and as the 
chairman mentioned, we have in a bipartisan way. We are moving 
forward in ways that deal with disasters and potential 
disasters more thoughtfully.
    We took up a bill in the House this week, I was a cosponsor 
of, to say that we are not going to rebuild someone's house 20 
times or 30 times. It is, you know, a very small percentage of 
the buildings out there cost 4 percent of--cost 25 percent--is 
it 4 percent or 2 percent? Never mind. Anyway, a very small 
percentage. I had the numbers before me, then cost about one-
quarter of FEMA's budget. And FEMA, of course, our flood 
insurance program is bankrupt.
    So we passed a bill to get a study to see if entering into 
agreements with people, in structures that have been repeatedly 
destroyed, to agree to pay them full market value the next time 
it is destroyed, and reducing their flood insurance risk 
program will save money. I think it is a no-brainer, it will. I 
mean, some people have been rebuilt multiple, multiple times.
    So we need to do better. We need to act smarter. We need to 
do actually all these things that have been enumerated, and 
Congress is the only hope that we have on delivering on that 
reality.
    Mr. Barletta. Thank you. Right now I recognize the ranking 
member of the subcommittee, Ms. Titus, for an opening 
statement.
    Ms. Titus. Thank you, Mr. Chairman. And I apologize for 
keeping you and the committee and our witnesses waiting. I 
won't make a habit of that, I assure you. I also thank you for 
holding this important hearing. As you have heard, the 
hurricane season began on June 1 and already we have had two 
hurricanes form in the Atlantic Ocean.
    Hurricane Beryl was downgraded to a tropical storm by the 
time it hit the U.S. Virgin Islands and Puerto Rico, where they 
were pummeled with strong winds and rain. And even though at 
that point it was no longer considered a hurricane, Tropical 
Storm Beryl caused over 40,000 homes and businesses to lose 
power temporarily in Puerto Rico, which highlights the fragile 
state of recovery.
    Also, in the midst of hurricane season, we see that 
numerous homes in both Puerto Rico and in the Virgin Islands 
still have blue plastic tarps as roofs, due to damage that was 
caused by last year's hurricane. Now, the intended lifespan of 
these tarps is 30 days, so you can imagine the condition they 
are in.
    The territories aren't the only ones in the midst of 
recovery from the 2017 disasters, and much work remains to be 
done to solve those problems as well as prepare for 2018.
    So in addition to the ongoing recovery issues and 
preparedness, right in the middle of all this, FEMA has 
released its 2017 hurricane season ``After-Action Report.'' In 
it, they noted several failures, as you have heard mentioned in 
their preparedness efforts for 2017, including inadequate 
staffing, lack of sufficient commodities in place, and 
logistical failures. At least they recognize what some of the 
problems are.
    In this ``After-Action Report,'' FEMA noted it had 
exhausted its predisaster contracts for commodities, such as 
food, water, and generators, which should have been in place to 
give FEMA a head start on its disaster response efforts. The 
Post-Katrina Emergency Management Reform Act requires that FEMA 
have contracts in place for recurring disaster response 
requirements before the disaster strikes. Yet, over the years, 
FEMA has failed to procure new contracts or renew existing 
contracts for such commodities in advance of the disaster, 
therefore, contributing to the state of unreadiness.
    Last fall, the Puerto Rico Electric Power Authority, PREPA, 
entered into two separate contracts, one with Whitefish Energy 
Holdings and the other with Cobra Acquisitions. Both contracts 
contained terms that limited proper Federal oversight. Although 
FEMA denies these claims, both contractors indicated that FEMA 
approved the contract terms.
    Now, I understand that the Office of Inspector General is 
investigating these contracts to determine the accuracy of the 
allegations. But I want to be clear, FEMA should never approve 
contracts that purport to limit any oversight over disaster 
funds. Now, by oversight, let's be clear what oversight means, 
it doesn't mean exercise undue influence. For example, just 
last May, PREPA entered into a new $900 million contract with 
Cobra Acquisitions to complete restoration of the electrical 
transmission system. Now, we have heard since then a potential 
interjection by FEMA into that contracting process.
    While FEMA needs to be diligent in ensuring that the 
grantees comply with Federal laws when they are competing for a 
contract, and that the terms are consistent with Federal 
requirements, that does not mean that FEMA should improperly 
interfere in the local contracting process, including the 
selection of the winning bidders. FEMA's ``After-Action 
Report'' also notes shortages of staff that hindered the 
response to disasters. FEMA needs to address this and the other 
problems listed in the report in a comprehensive manner, and I 
look forward to hearing about your plans.
    Finally, FEMA acknowledges the need to invest in mitigation 
and better prepare for future disasters. Yet, in its 2018 to 
2022 strategic plan, you remove all references to climate 
change. As long as FEMA engages in this type of contradictory 
behavior, the Nation and FEMA will fall behind in its 
preparedness effort. So as we talk about natural disasters, I 
think we have to be realistic.
    Finally, I would just mention that pets are something that 
are missing from our report and from our plans, and I would 
like to see some discussion of the Pet Emergency Transparency 
and Accountability in Disasters Act that we have introduced, 
because if you take care of pets that often makes it easier to 
take care of the people who are engaged.
    So I thank you, Mr. Chairman. And I look forward to the 
discussion.
    Mr. Barletta. Thank you, Ms. Titus. Today, we are joined by 
Mr. Jeffrey Byard, Associate Administrator, Office of Response 
and Recovery, Federal Emergency Management Agency.
    Mr. Ray Alexander, Director of Contingency Operations and 
Homeland Security, U.S. Army Corps of Engineers.
    Mr. Patrick Sheehan, director, Tennessee Emergency 
Management Agency, testifying on behalf of the National 
Emergency Management Association, which represents State 
emergency managers.
    Mistie Gardner, emergency management coordinator, city of 
Richardson, Texas, testifying on behalf of local emergency 
managers, and the U.S. Council of the International Association 
of Emergency Managers.
    And the Honorable Dave Paulison, who served as FEMA 
Administrator from 2005 until January 2009, testifying on 
behalf of the BuildStrong Coalition.
    I ask unanimous consent that our witnesses' full statements 
be included in the record.
    Without objection, so ordered.
    For our witnesses, since your written testimony has been 
made a part of the record, the subcommittee would request that 
you limit your oral testimony to 5 minutes.
    And, Mr. Byard, you may proceed.

TESTIMONY OF JEFFREY BYARD, ASSOCIATE ADMINISTRATOR, OFFICE OF 
  RESPONSE AND RECOVERY, FEDERAL EMERGENCY MANAGEMENT AGENCY; 
 CHARLES R. ALEXANDER, JR., DIRECTOR OF CONTINGENCY OPERATIONS 
 AND HOMELAND SECURITY, U.S. ARMY CORPS OF ENGINEERS; PATRICK 
 SHEEHAN, DIRECTOR, TENNESSEE EMERGENCY MANAGEMENT AGENCY, ON 
BEHALF OF THE NATIONAL EMERGENCY MANAGEMENT ASSOCIATION; MISTIE 
    GARDNER, CEM, EMERGENCY MANAGEMENT COORDINATOR, CITY OF 
    RICHARDSON, TEXAS, ON BEHALF OF THE U.S. COUNCIL OF THE 
   INTERNATIONAL ASSOCIATION OF EMERGENCY MANAGERS; AND HON. 
ROBERT DAVID PAULISON, FORMER ADMINISTRATOR, FEDERAL EMERGENCY 
   MANAGEMENT AGENCY, ON BEHALF OF THE BUILDSTRONG COALITION

    Mr. Byard. Chairman Barletta, Ranking Member Titus, and 
members of the subcommittee, good morning. My name is Jeff 
Byard, I am the Associate Administrator for the Office of 
Response and Recovery for FEMA. On behalf of the Secretary 
Nelson and Administrator Long, thank you for the opportunity to 
discuss lessons learned from the 2017 historic hurricane season 
and our ongoing progress made under, one, FEMA strategic plan; 
and two, our preparations for the current 2018 hurricane 
season.
    As mentioned, Hurricanes Harvey, Irma, and Maria devastated 
a Nation at a time when FEMA was already supporting dozens of 
open federally declared disasters across our country. During 
the response to the three catastrophic hurricanes, FEMA also 
responded to historic wildfires in California. An estimated 47 
million Americans were affected by last year's hurricanes and 
wildfires. That is approximately 15 percent of the entire U.S. 
population.
    Following the 2017 hurricanes, we have reviewed 
preparations for the immediate response and initial recovery 
operations with a goal of identifying lessons learned, which 
collectively benefit future emergency management operations at 
all levels, both local, State, Federal, nonprofit, and the 
private sector.
    Last week we released our 2017 hurricane season ``After-
Action Report.'' The report examines the Agency's performance 
during the record-breaking season and captures transformative 
insights that will help FEMA, the emergency management 
community, and the Nation chart a path into the future. The 
report identified key findings across five focus areas, and 
offered targeted recommendations for us to improve, as well as 
broader lessons for partners throughout the emergency 
management community.
    You know, we took a hard look at ourselves, we pointed our 
finger at ourselves, and we released that report. You know, we 
hear terms like failure, we hear terms like admission. We look 
at that as leadership. That not only helps our Agency, it helps 
Director Sheehan, Director Gardner, and many others. In the 
minute we stop looking at ourselves and taking that hard look 
because of what we may fear others may say, we have lost the 
ball, we have lost the leadership.
    Aligned with key focus areas in the ``After-Action 
Report,'' FEMA's strategic plan builds on the existing best 
practices, identifies new initiatives geared towards achieving 
three overarching goals. The three main goals to our strategic 
plan are to build a cultural preparedness, ready the Nation for 
catastrophic disasters, and reduce the complexity of FEMA. 
These three goals are overarching and they are all hazards. 
They are not applied to a specific hazard, they are not applied 
to a specific cause. They are how we react and how we stabilize 
our country in the event that something bad may happen.
    As part of the initiative to ready the Nation for 
catastrophic disasters, we are emphasizing the stabilization of 
critical lifelines and coordination across critical 
infrastructure sectors. This is a new terminology in emergency 
management as we have always focused on State and locals, and 
we continue to focus on State and locals. We have to broaden 
our horizons. We have to bring people more under our tent.
    Lifelines provide indispensable services that enable the 
continuous operation of critical business and Government 
functions, and if not properly restored, they risk health and 
safety, and they also can risk national economic security. 
Solutions to stabilize lifelines, as we found out in 2017, do 
not fit in a single construct, like our existing emergency 
support functions. So we must provide cross-sector coordination 
to effectively stabilize critical lifelines.
    For example, the critical lifeline of food, water, and 
sheltering crosses many agencies, community partners, and 
emergency support functions. But we must address holistically 
in order to support the community, focusing on lifelines and 
related impacts will allow decisionmakers at all levels to move 
rapidly, and will allow better utilization of limited resources 
toward restoration of critical infrastructure.
    As we look at 2017, we are taking immediate steps in 2018. 
For example, we have updated our plans, annexes, and 
procedures. We made logistical improvements, specifically in 
the Commonwealth and our island States and territories. We have 
increased from thousands of bottles of water to millions. 
Thousands of MREs to millions. Where we had one warehouse in 
the Commonwealth, we now have five. We have redefined our 
tactical and long-haul disaster communications.
    We have had coordinated exercises and training with many 
multiple partners to include the Commonwealth and the 
territory. And we are modernizing our housing inspection. I 
would like to take a moment to highlight one of our 
initiatives. What we clearly learned is we have to increase our 
stocks hourly, our OCONUS [outside the continental United 
States] locations. That gives us better time to coordinate with 
the private sector when we have limited shipping, limited air, 
and limited receiving capabilities. What we know now is we can 
coordinate better with the private sector when we have that. So 
establishing larger footprints in the Caribbean will allow us 
days and not hours to establish that and better serve our 
citizens.
    I am pleased to be here today to represent the dedicated 
men and women of FEMA. I am pleased to be with the partners on 
this panel. And I am happy to take any questions the committee 
may have. Thank you.
    Mr. Barletta. Thank you, Mr. Byard, for your testimony. Mr. 
Alexander, please proceed.
    Mr. Alexander. Chairman Barletta, Ranking Member Titus, 
distinguished members of the subcommittee, good morning. I am 
honored to testify before you today and discuss the authorities 
and responsibilities of the U.S. Army Corps of Engineers during 
disaster response and recovery operations, lessons learned from 
the 2017 storm season, and actions taken to ensure readiness 
for 2018.
    The Corps conducts its emergency response and recovery 
activities under two basic authorities, the Stafford Act and 
Public Law 84-99. Under the Stafford Act and the National 
Response Framework, the Corps works under the direction of 
FEMA, serving as the lead Federal coordinating agency for 
Emergency Support Function 3, Public Works and Engineering.
    For recovery missions, the Corps serves as the lead 
coordinating agency for the Infrastructure Systems Recovery 
Support Function under the National Disaster Recovery 
Framework. Public Law 84-99 provides a separate source of 
authority for the Corps to prepare for and respond to floods, 
hurricanes, and other natural disasters.
    Under these authorities, the Corps maintains more than 50 
specially trained response teams supported by emergency and 
pre-awarded contracts to perform the wide range of public works 
and engineering-related missions. The 2017 hurricane season was 
historic, and we continue to identify lessons learned in an 
effort to sustain and improve our performance.
    The extraordinary impacts of Hurricanes Harvey, Irma, and 
Maria, resulted in this unprecedented response. For Harvey, 
FEMA issued the Corps 23 mission assignments, totaling over 
$140 million. At its peak, nearly 1,000 Corps employees 
deployed, and 40 employees remain engaged today, supporting 11 
active recovery mission assignments.
    In response to Hurricanes Irma and Maria, FEMA issued 49 
mission assignments, totaling over $3.3 billion for Puerto Rico 
and the U.S. Virgin Islands. We deployed thousands of 
personnel, and today 369 Corps employees remain engaged 
executing recovery operations. Additionally, we received 43 
mission assignments in Florida and Georgia, totaling 
approximately $45 million.
    Detailed in my written testimony, mission assignments 
encompassed a range of activities including removal of debris, 
installation of generators to provide temporary emergency 
power, and the construction of temporary ``blue roofs,'' which 
enable impacted residents to move out of emergency shelters and 
back into their home.
    In response to Irma and Maria, the Corps was tasked to 
assist in the repair of segments of the Puerto Rican power 
grid. The collaboration of responders, which includes the Corps 
and Federal agency partners, the utility industry, and the 
Puerto Rico Electric Power Authority, have now restored over 
99.9 percent of the nearly 1\1/2\ million customers who had 
power before the storms.
    Including these three major hurricanes, the Corps responded 
in total to 32 events in 2017. Among these disasters was the 
October 2017 wildfires across northern California. FEMA issued 
seven mission assignments, totaling $1.2 billion for debris 
management and technical assistance. Additional wildfires in 
late December of 2017 in Ventura and Santa Barbara Counties 
precipitated into deadly mudslides in Santa Barbara County 
after significant rainfall in January of this year.
    In response, FEMA issued two additional mission assignments 
totaling $110 million for the removal of mudslide debris from 
11 basins and natural channels. Other events the Corps assisted 
during 2017, including the central U.S. blizzard, the Bighorn 
River ice jam, and numerous flooding and other severe weather 
events.
    The Bipartisan Budget Act of 2018 appropriated over $17 
billion for the Corps to repair and rehabilitate projects 
across the Nation damaged by natural disasters, to construct 
flood and storm damage reduction projects, and to complete 
flood and coastal storm damage reduction studies. We recently 
identified specific projects that will receive these funds and 
are working as quickly as possible to complete this work.
    Combining the lessons learned and best practices from 2017, 
we have taken immediate actions to prepare for 2018. We 
completed several hurricane exercises, along with Federal, 
State, local, and territory partners, the gulf, and east coast, 
as well as for Puerto Rico, and this week, in the U.S. Virgin 
Islands. We participated in FEMA's 2018 intergovernmental and 
private-sector national level exercise, and we too have updated 
our hurricane plans, annexes, and our standard operating 
procedures.
    Based on lessons learned, we have worked with FEMA to 
update and refine 34 prescripted mission assignments which 
include new cells for logistic support, command and control 
integration, and planning. We are developing an acquisition 
center of excellence to create a robust and agile contracting 
capability to support large complex missions that involve 
debris, temporary power, and roofing, as nonstandard 
contingency support requirements emerge.
    In addition to our involvement in these and future response 
and recovery missions, the Corps remains fully committed and 
capable of executing our other civil works activities across 
the Nation.
    This concludes my testimony. I look forward to answering 
any questions you may have. Thank you.
    Mr. Barletta. Thank you for your testimony, Mr. Alexander. 
And, Mr. Sheehan, you may proceed.
    Mr. Sheehan. Thank you, Chairman Barletta, Ranking Member 
Titus, and distinguished members of the subcommittee for 
holding this hearing.
    In my statement for the record, I explain in detail the 
hard work of my agency and our partners in Tennessee during the 
2016 response to wildfires, and the drought that extended 
across the State ultimately destroying thousands of acres, more 
than 2,600 buildings, injuring more than 134, and resulting in 
14 deaths.
    But these fires were merely a precursor to a year in which 
the Nation saw tremendous damage and losses from drought, 
wildfires, and of course the incredible destruction caused by 
Hurricanes Harvey, Irma, and Maria. This made 2017 the 
costliest disaster year in our history. Emergency managers 
constantly review our actions and work toward making continuous 
improvements, building learning organizations, and diffusing 
knowledge is incredibly important to our profession, and to the 
emergency management enterprise.
    In the 2017 disaster season and preparations being made for 
2018, we must remember that all the various policies, 
processes, and programs of emergency management are interwoven 
with each other, and extend far beyond what we see happening at 
FEMA or in the headlines every day.
    Much of what happens to prepare the Nation happens every 
day in the States, counties, and cities of our Nation. For 
example, beyond any of the federally declared disasters in 
2017, State emergency managers handled an additional 22,552 
events. Local governments managed another 12,557 events. FEMA 
is not a first responder during disasters or otherwise. So with 
without a thriving State and local emergency management system, 
many of these 35,109 events likely would not have received the 
type of response that they needed.
    A culture of preparedness and timely response capabilities 
are vitally important to States and local communities. We 
create this thriving emergency management system by fostering a 
culture of preparedness to address threats and risks; building 
capacity and capabilities; and creating the basis by which 
States are empowered to assist one another.
    Beyond specific preparedness programs that may strengthen 
people or policies, mitigation strengthens our infrastructure. 
This committee, this subcommittee, has taken bold steps toward 
fostering a culture of preparedness. The National Public 
Infrastructure Predisaster Hazard Mitigation program, included 
in the Disaster Recovery Reform Act, will fundamentally change 
how we prioritize and manage mitigation in this Nation.
    The ability to utilize 6 percent of the total disaster 
costs in a year to put toward mitigation projects will 
fundamentally shift the preparedness paradigm and drive down 
future disaster costs. Studies continue to show the value of 
investment in mitigation and the alleviation of potential 
suffering is apparent.
    NEMA [National Emergency Management Association] is also 
pleased to support the DRRA provision, increasing the overall 
amount available for management costs. The increase from 3 
percent to 12 percent will allow States and local governments 
to assume more responsibility in this emerging environment of 
collaborative disaster management. Any increase, however, must 
be tied to the flexibility to roll over these costs from one 
disaster to the next.
    NEMA and IAEM [International Association of Emergency 
Managers] developed a proposal explaining this concept, which 
has been submitted to FEMA, and was submitted for the record 
with my testimony. One of the other ways in which emergency 
managers build capacity is through programs such as the EMPG 
[Emergency Management Performance Grant], which is truly a 
Federal, State, and local partnership. For every Federal dollar 
invested in the EMPG, at least that much is matched by State 
and local governments.
    NEMA and IAEM come together every year to voluntarily 
submit a report to Congress on EMPG's return on investment. 
This report demonstrates the hard work that goes into 
supporting these 35,109 events I mentioned earlier. Yet despite 
the continued growth of disaster activity across the Nation, 
EMPG funding has remained stagnant since 2012, and that is why 
NEMA and IAEM call on Congress to approve a 5-percent 
inflationary increase for the program in the 2018 omnibus. 
While we were not successful in 2018, we repeat that request 
again for the 2019 omnibus and trust Congress will find a way 
to prioritize this program.
    The effects of programs like EMPG and efforts to increase 
management costs can be multiplied several times over when 
States are empowered to assist one other. The best way we do 
this is through the Emergency Management Assistance Compact or 
EMAC. From August 2017 to July of this year, a total of 19,196 
personnel deployed through EMAC. Capacity built throughout the 
system is capacity able to be shared across the country, and 
the National Guard is a vital part of that capability as well.
    The emergency managers and our partners continue to work on 
improving the speed and availability of this system. As we 
examine the 2017 disaster year and look ahead to the rest of 
2018, remember that even when FEMA is not actively responding 
to a disaster, State and local emergency managers are still 
recovering from the last event, and conducting the planning, 
building the capacity, and setting the stage for the next storm 
to approach, all while working diligently to implement and 
manage sometimes complicated Federal programs.
    Chairman Barletta and Ranking Member Titus, and 
distinguished Members, thank you for your continued support and 
keeping attention on needed capabilities and policy discussions 
that need to be had. Your leadership and persistent support are 
appreciated, and I am happy to take any of your questions.
    Mr. Barletta. Thank you for your testimony. Ms. Gardner, 
you may proceed.
    Ms. Gardner. Good morning, Chairman Barletta, Ranking 
Member Titus, and members of the subcommittee. Thank you for 
this opportunity to testify on lessons learned from the 
historic 2017 hurricane season. My name is Mistie Gardner, I am 
the emergency management coordinator for the city of 
Richardson, Texas. I have worked in public safety for 23 years, 
and 10 of which I have been a Certified Emergency Manager.
    I appear before you today as a representative of the U.S. 
Council of the International Association of Emergency Managers, 
an advocacy organization for the profession dedicated to 
protecting America's local communities from all hazards and 
threats. Local governments serve as our Nation's first line of 
defense. When disasters strike and immediately following a 
disaster, emergency managers play a role in coordinating local 
response and recovery efforts, working to mitigate further 
damage from the disaster.
    But the most consequential work local emergency managers do 
actually happens before the disaster. Emergency managers wake 
up thinking about, planning for, and mitigating for all types 
of emergencies because we don't have the benefit of knowing 
what may occur next. A public health emergency, a hurricane, 
tornado, active shooter, the list goes on. And, unfortunately, 
most of those things happen with little to no warning.
    Every day, emergency managers are hard at work behind the 
scenes at all levels of Government, coordinating with partners 
from all sectors of the Nation, helping our communities become 
better prepared.
    Mr. Chairman, with the 2018 hurricane season already upon 
us and numerous disasters have already struck our Nation this 
year, I want to take a moment to look back at lessons learned 
from last year's unprecedented disaster impacts. By sharing 
these observations, I hope to contribute to the discussions 
Congress and FEMA are having about reforming our Nation's 
disaster recovery systems.
    Ultimately, it is the hope of IAEM that Congress will pass 
the Disaster Recovery Reform Act. As a demonstration of your 
commitment to supporting predisaster mitigation, and helping to 
develop a culture of preparedness in which we are all more 
resilient to the impacts of disaster.
    From August through October of 2017, I worked on three 
deployments in response to Hurricane Harvey. First, I served as 
the emergency operations center manager for the city of Dallas 
in an effort to shelter more than 5,000 Texas citizens. From 
there I was called to work in the State Operations Center to 
help coordinate public works resources statewide. Finally, I 
was deployed as part of a recovery assistance team, supporting 
seven heavily impacted coastal jurisdictions.
    Mr. Chairman, as a matter of practice, emergency managers 
continually evaluate what works well, while actively seeking 
opportunities to improve future response and recovery efforts. 
Our success hinges on having the courage to make the changes 
associated with these lessons learned. In my written testimony, 
submitted to the subcommittee, I outlined some of the lessons 
learned during Hurricane Harvey experiences. I would like to 
highlight a few of those key points for your consideration.
    First, information sharing challenges were an issue yet 
again. Simply, emergency managers cannot adequately communicate 
with the public and coordinate an effective recovery if we do 
not have access to key information, that the nonprofits and the 
Federal partners, that we invite in to assist, have. The right 
to know must specifically include emergency managers through 
Federal policy.
    Second, the lack of available personnel resources 
sufficiently trained in recovery and mitigation processes 
challenged impacted jurisdictions greatly. Thirdly, we lack 
adequate shelter capacity to meet the needs. Revising the 
Stafford Act to allow utilization of spaces which are not 
considered congregate shelters would have a tremendous impact. 
But allowing locals to partner and utilize predisaster 
mitigation funds to build shelters closer to the their 
communities, even though the cost-benefit analysis may not meet 
the current threshold, that builds resiliency.
    The cost-benefit analysis alone does not adequately 
represent the world's environmental and role social impacts 
play. As the funding with the most potential to make 
exponential strides toward resiliency, we must allow for 
inclusion of multiple factors when determining project 
eligibility.
    Lastly, I urge Congress to show its commitment to disaster 
readiness and resiliency by authorizing more predisaster 
mitigation funding. To compare, in 2017, predisaster mitigation 
for the entire Nation was $90 million, but for Harvey alone, 
the State of Texas has been allocated $1 billion. Doesn't it 
make more sense to invest in predisaster mitigation efforts, 
working to avoid such massive post-disaster expenses?
    On behalf of IAEM and all local government emergency 
management professionals across the country, I sincerely 
appreciate this opportunity to share my Hurricane Harvey 
experiences. I hope my testimony fosters further discussion as 
we strive to improve the way we as a Nation frame disaster 
resiliency.
    Use the opportunities in 2017, those lessons learned. Help 
us build a generation of Americans who anticipate needs and 
resolve to take action before disaster, empowering themselves 
to be more resilient to disasters in the future.
    Thank you, Chairman Barletta. I look forward to any 
questions the members of the subcommittee have for me.
    Mr. Barletta. Thank you for your testimony, Ms. Gardner. 
Administrator Paulison, you may proceed.
    Mr. Paulison. Chairman Barletta, Ranking Member Titus, and 
members of this subcommittee. I want to thank you for holding 
this important hearing today. As communities around the Nation 
continue to recover in the wake of last year's devastating 
catastrophes, I remain grateful for the leadership demonstrated 
by this committee, the chairman, and the ranking member, and 
for the opportunity to share my expertise with the committee on 
the behalf of the BuildStrong Coalition.
    The BuildStrong Coalition is a group of firefighters, 
emergency responders, insurers, engineers, architects, 
contractors, and manufacturers, as well as consumer 
organizations, code specialists, and many others, committing to 
build a more resilient America. During my 40 years' experience 
dealing with natural disasters at the Federal, State, and local 
levels, I have gained a deep appreciation for the tremendous 
service of our Nation's first responders and emergency 
management officials.
    In my career, which began in 1971 as a rescue firefighter, 
I served as Administrator of FEMA from 2005 to 2009, 
Administrator to the U.S. Fire Administration from 2001 to 
2005, Director of Preparedness for FEMA from 2003 to 2004, and 
fire chief of Miami-Dade Fire and Rescue Department from 1992 
to 2001. Maybe it looks like I can't hold a job, huh?
    Responding to many major hurricanes, including Hurricane 
Andrew in 1992, and Katrina in 2005, has provided me with a 
unique understanding of how we can better position FEMA to 
respond when disaster strikes. As we all know, last year was a 
particularly devastating one for disasters with 17 storms 
during the Atlantic hurricane season responsible for over $200 
billion in damages, and a death toll in the thousands, 
according to most estimates. These are astounding and 
horrifying numbers. And our focus should remain on helping 
those who lost so much.
    Having sat in his chair, I know well the challenge 
Administrator Long and his entire team face. While we are 
helping those in need, it is beyond time to give serious 
consideration to why we continue to leave lives, homes, 
communities vulnerable. The evidence is simply overwhelming. 
Better land use, modern construction standards, and increased 
mitigation can dramatically reduce the devastation brought by 
these disasters.
    We must incentivize and reward communities who invest in 
resiliency and stronger building codes. As lives are on the 
line, we must provide incentives for States to promote fire 
sprinklers, and insist that fire code officials get the 
nonflammable and seismic standards right the first time and 
make sure they are enforced. The cost share provision included 
in the Bipartisan Budget Act, signed by President Trump just 
earlier this year as part of the Disaster Recovery Reform Act, 
passed by this very committee, represents a major step for 
creating these incentives. And the work of this subcommittee, 
including you, Mr. Chairman, as well as the work of other 
leaders, such as Chairman Shuster and Denham, deserve a 
tremendous amount of credit. Thank you for that.
    With another busier than expected hurricane season ahead, 
it is more urgent than ever that Congress send the entire 
Disaster Recovery Reform Act to the President's desk. One 
provision would dramatically boost the size of the Nation's 
predisaster mitigation account, arming communities all over the 
Nation with new tools to mitigate against the risk of wind 
damage, flooding, and wildfires.
    Also, before us is FEMA's task in implementing the cost 
share adjustment provision, if passed into law. Let me make it 
clear that I applaud FEMA for embracing this challenging task, 
and I would like to offer four specific recommendations that I 
believe, based on my experience, will help ensure the incentive 
is implemented in a way that will protect homes, lives from 
future storms.
    First, the cost share incentive should be established as a 
FEMA pilot program to ensure maximum flexibility and speed of 
enactment.
    Second, a minimum standard should be established such that 
in order to be eligible for any enhanced Federal cost share, a 
State must have a statewide building code within an enforcement 
mechanism--a strong enforcement mechanism.
    Third, the State must have a working mitigation plan that 
identifies top vulnerabilities and the steps the State must 
take to reduce those vulnerabilities. In order to receive any 
funding above 75 percent minimum amount, States must implement 
action identified in this plan.
    Finally, it would be critical to push for incentives 
offered to the House under State mitigation plans and building 
codes that can achieve significant impact. This would mean the 
adoption of the most recent recommended code and maintaining a 
model code no older than 6 years, and implementing changes to 
State and local building codes that address key 
vulnerabilities.
    As the 2018 Atlantic hurricane season gets underway, the 
time is now to put predisaster mitigation at the forefront and 
protect our Nation and communities from the next storm. There 
is a critical piece of unfinished business from the disaster 
legislation passed by this committee in the House of 
Representatives this year. A key provision puts 6 percent of 
all annual disaster spending on the budget for predisaster 
mitigation.
    This provision is critical and must be passed by this 
Congress. Without preventative mitigation spending, people are 
left vulnerable and losing their lives, property being 
destroyed, and it simply doesn't have to be this way.
    So I want to thank you again for holding this important 
hearing, and I look forward to hearing your questions.
    Mr. Barletta. Thank you for your testimony, Administrator 
Paulison.
    And I will now begin the first round of questions, limited 
to 5 minutes for each Member. If there are additional questions 
following the first round, we will have additional rounds of 
questions as needed.
    And, first, I was glad to hear Ranking Member Titus mention 
the importance of the needs of pets during a disaster, a topic 
of great importance to me. We included a very important 
provision in the DRRA that authorizes FEMA to set up a 
veterinarian pilot program that will help communities get the 
help they need in setting up shelters that include facilities 
for pets. So thank you for bringing that up.
    And I will begin. Twice this Congress--the House has 
overwhelmingly passed the Disaster Recovery Reform Act, which 
includes key provisions that will help speed disaster recovery 
and mitigate disaster risks. The legislative changes in 
authorities in DRRA will save lives, property and taxpayer 
dollars. And the Senate has yet to act on this important 
legislation.
    To all witnesses here, how important do you think it is 
that Congress enact the provisions contained in the Disaster 
Recovery Reform Act?
    Mr. Byard, you may start.
    Mr. Byard. Yes, sir. We appreciate the committee's 
commitment to improving our Nation's resilience and response to 
disasters. You know, the DRRA will incentivize that investment 
in predisaster mitigation very, you know, similar to what 
Administrator Paulison just laid out. Building a Nation of 
resilience--building a culture of resilience is one of the 
Administrator's top strategic goals. Thank you.
    Mr. Alexander. The Corps of Engineers certainly supports 
any effort to increase the resilience of the Nation's 
infrastructure and to promote life, health, safety measures. We 
also support, you know, investments and mitigation upfront. We 
are working on the Mitigation Framework Leadership Group with 
our Federal agency partners on the development of a National 
Mitigation Investment Strategy.
    If you take a look at the dollar amounts associated with 
the supplementals of storms since Hurricane Katrina, if you 
took a fraction of that amount and invested it in mitigation, 
perhaps we would be able to mitigate the damages that we see 
today in our response and recovery operations. Thank you.
    Mr. Sheehan. The National Emergency Management Association 
supports this legislation and remains active in helping work 
towards its passage. The key provisions that are most important 
for us are the National Public Infrastructure Predisaster 
Hazard Mitigation, the provision to take 6 percent of the 
disaster funding and makes it available for predisaster 
mitigation, is I think a game changer in terms of our Nation's 
resilience.
    We also support the increase in management costs. This 
provision gives the ability to change that current level of 
funding from 3.34 percent to 12 percent, split 7 percent to the 
State and 5 percent to local governments. If that happens, if 
we are ever able to implement that, Administrator Long's vision 
for FEMA, for the emergency management enterprise, and the 
Nation in creating a more collaborative disaster management 
process will be realized. That allows us to fund that 
capability and build a more collaborative emergency management 
system.
    The National Emergency Management Association opposes the 
duplication of benefits provision there. We think that the 
ability to waive some of these things could lead to other 
agencies trying to reach into the disaster relief fund and that 
that could create potential problems in funding streams for 
funding the Nation's disaster readiness.
    Ms. Gardner. Building on Mr. Sheehan's discussion there, 
the International Association of Emergency Managers also 
supports. And we urge everyone to remember that this policy--it 
is written policy, but it saves lives. And if it is not saving 
a life, it is impacting quality of life. And for those that are 
less willing to look at passing such legislation, remember, it 
may be your family that is dealing with this legislation and 
policy in the future, and make sure that you can live with 
whatever that comes up to be.
    Incentives for States and locals are imperative, it helps 
us to continue to drive mitigation as a culture in our own 
communities so that we can teach that culture to citizens that 
live in our communities. But consider the possibilities of 
additionally adding the benefit and incentives to the local 
citizen, the private-sector partners we have, the nonprofits, 
and the other nongovernmental agencies within those 
jurisdictions. How can those incentives also be directly 
applied so that the culture can be continued to be built.
    Mr. Paulison. As you are sitting here listening and you see 
that almost every agency that responds to disasters recognizes 
very clearly, very clearly that predisaster mitigation works, 
it does save lives, it saves property. We saw very--after 
Hurricane Andrew, we made significant changes in our building 
code. You saw Hurricane Irma go through the Keys. The houses 
that were built to the new code were still there, they are 
doing fine. Some of them didn't even lose their roof tiles. It 
went across the top of my house in south Florida, and no damage 
at all.
    If you look at last year's disaster spending, over $200 
billion spent on disasters. Taking 6 percent of that and 
applying to predisaster mitigation, can you imagine the impact 
this will have across this entire country as far as building 
resiliency in our system. So back to you, I know you are over 
your 5 minutes.
    But, look, Mr. Barletta, the question that you asked, will 
it have an impact? Of course it would, and a very, very 
positive impact. And I think it is extremely important that we 
push this very hard to get it not only through here but also 
through the Senate. Thank you for the question.
    Mr. Barletta. The Chair now recognizes Ms. Titus for 5 
minutes.
    Mr. Titus. Thank you, Mr. Chairman. A big part of the 
recovery after a disaster is contracting with the private 
sector to get assistance with some of the efforts. So I would 
like to ask you, Mr. Byard, about some disaster contracting 
with FEMA.
    In October of 2017, the Puerto Rico Electric Power 
Authority awarded a small company with just two full time 
employees, located in Montana, the Whitefish Energy Holdings 
Company, a $300 million contract to restore electricity on the 
island in the aftermath of Hurricane Maria.
    According to the Washington Post, before the White House--I 
mean, before Whitefish--you can see where I might get the two 
confused--Whitefish received the $300 million contract. The 
only thing that they had done was a small effort in Arizona to 
repair a 4.8-mile transmission line for a $1.3 million deal. 
Now, they have eventually canceled their contract with 
Whitefish, but so far they received a payment of over $30 
million to work in Puerto Rico. And Whitefish claims that 
Puerto Rico owes them an additional $100 million.
    I would like to ask you what role FEMA played in the 
awarding of that contract? Did they request any guidance from 
you before making the award? Are you planning to reimburse them 
for their expenses related to the contract?
    I wonder if you are cooperating with the probe, I 
understand that the Department of Homeland Security, Office of 
the Inspector General, is conducting. And can you provide to 
the subcommittee kind of a detailed justification or the 
project worksheet for what was actually done to merit this kind 
of payment of taxpayer dollars?
    Mr. Byard. Yes, ma'am. So we have to look at the context of 
where we were. So we have a devastating disaster, and I believe 
it was in October of 2017, when PREPA, who is the legal, 
responsible entity, to restore power for the Commonwealth. Just 
as most of our co-ops, cooperatives around our Nation, just as 
our private electric providers are around our Nation, PREPA was 
the entity that was tasked and has the responsibility to 
provide power to the citizens of the Commonwealth.
    As with many storms prior to that and many different 
disasters prior to that, standard practice within the industry 
is mutual aid crews will come in to assist. That did not occur 
at that time. So PREPA elected to do a contract. FEMA does not 
get involved in the contracts between legal applicants, 
necessarily, and who they contract with. We have Federal 
procurement rules and regulations that are required to be 
followed in order to get reimbursement for contracts at large.
    The Public Assistance Program does give the ability for 
FEMA to reimburse eligible applicants for eligible work. So any 
reimbursement done under the Whitefish contract or any other 
contract has gone through eligibility requirements as set forth 
in the Stafford Act for reimbursement. So--and you had a list 
of questions, but I am just going to give an overview of how 
that works.
    So at the time, you know, we had to make some very quick 
and crisis action planning decisions on the ground, some of 
which we have not been faced with in any disaster. For example, 
the actual generation and distribution power of the 
Commonwealth was devastated. And in most terms and in most 
cases we turn to the Corps of Engineers, which is a vital 
partner to what we do for emergency power restoration, and that 
is generally done through generators. At this time we knew that 
we had to have more than that. So we asked the Corps to step 
up----
    Ms. Titus. I am not interested in the Corps. I want to get 
back to the Whitefish arrangement.
    Mr. Byard. Ma'am, as far as the Whitefish, that is a PREPA 
question. What we would do is reimburse eligible applicants 
across the Nation for eligible work done.
    Ms. Titus. And do you not think that FEMA should have in 
place some greater checks on the contracts that are issued 
before you just pay out this kind of money to a company that 
you--even I, and I am not an expert in this area, would have 
some reservations about contracting with--for such a major job, 
and over time it has shown that they weren't up to the job.
    Mr. Byard. Right. So----
    Mr. Titus. You don't think that is your responsibility?
    Mr. Byard. No, ma'am, I don't. I think the responsibility 
is always best if it is locally executed, State-managed, and 
federally supported.
    So, you know, as you heard the esteemed colleagues on the 
panel, all disasters begin and end locally. So, you know, what 
are we asking FEMA to do? Do we support the locals in one hand, 
and then, you know, manage, oversee, and dictate how they 
contract in the other?
    Ms. Titus. I'm not asking you to dictate----
    Mr. Byard. Now we have many checks and balances in place--
--
    Ms. Titus [continuing]. I am asking you to provide some 
oversight for all this amount of money----
    Mr. Byard. Yes, ma'am.
    Ms. Titus [continuing]. For all this amount of money of $30 
million of taxpayers.
    Mr. Byard. Right. And I believe the total bill was over 
$300 million. So I feel very certain we have very strict 
oversight on what the taxpayers' dollars are going to. We want 
to build back better.
    So, you know, there are oversight measures in place with 
Whitefish and any other contract.
    Ms. Titus. Is that part of your after-disaster report to 
have greater oversight on these kind of contracts and you don't 
think it should be?
    Mr. Byard. No, ma'am, I never said I didn't think it should 
be. I said we have current oversight and current policies and 
procedures in place to ensure that Federal dollars are spent 
wisely and that they are spent for the allocations set forth in 
the Stafford Act as--we also have contract teams that will go 
out and assist local governments. They have done that in Texas 
and Florida and others. So I believe we have adequate oversight 
in place.
    Ms. Titus. Thank you, Mr. Chairman.
    Mr. Barletta. The Chair now recognizes Mr. Crawford for 5 
minutes.
    Mr. Crawford. Thank you, Mr. Chairman.
    Mr. Byard, are you aware what percentage of homes flooded 
by Hurricane Harvey had flood insurance policies?
    Mr. Byard. Sir, I don't know the percentage. I can 
definitely get that back to the committee. I would hate to 
guess or estimate.
    Mr. Crawford. All right. Well, I am looking at a Washington 
Post report on an analysis of FEMA data that shows only 17 
percent of homeowners in the eight most affected counties had 
flood insurance. Does that sound accurate to you?
    Mr. Byard. You know, sir, I don't want to, you know, judge 
the accuracy of the Washington Post, but what I will say is, 
you know, insurance is the first and best line of defense.
    Mr. Crawford. OK.
    Mr. Byard. So if 17 percent is what they had, I would say 
that would be low in that area.
    Mr. Crawford. OK. Let me ask you this: Are you aware that 
FEMA is legally required to assess the accuracy and need to 
update a flood map covering an area every 5 years?
    Mr. Byard. What I can do is get you information on the 
National Flood Insurance Program. It is not under my purview.
    Mr. Crawford. It is not?
    Mr. Byard. No, sir. I am under response recovery. I handle 
Stafford Act programs. But I can definitely get you information 
and would be happy to provide any and everything on the 
National Flood Insurance Program.
    Mr. Crawford. Well----
    Mr. Byard. I don't want to overspeak. I would hate to do 
that to you in the fine committee.
    Mr. Crawford. Well, that said, probably the line of 
questioning that I have is probably better directed for 
somebody else in your Agency. So you don't have any issues with 
flood control, or flood mapping, per se?
    Mr. Byard. No, sir, it is not under--again, it is not under 
my responsibility, as laid out by the Administrator.
    Mr. Crawford. OK.
    Mr. Byard. But, again, we will be happy to work with you. I 
don't want to come across like I am dodging the question. I 
just----
    Mr. Crawford. Sure. I understand. Do you have any knowledge 
of that 5-year requirement, though? Is that, in fact, accurate, 
that you have to update every 5 years?
    Mr. Byard. You know, and I hate to look to my left, but our 
State and locals may have a better understanding of the mapping 
requirements. And, again, I don't want to put them on the spot, 
but----
    Mr. Crawford. Well, let me ask Ms. Gardner, because I think 
you were in the area affected, correct?
    Ms. Gardner. I was not.
    Mr. Crawford. You were not?
    Ms. Gardner. No. I actually am in north Texas.
    Mr. Crawford. Oh, you are not. OK.
    Ms. Gardner. I responded to the area to support.
    Mr. Crawford. OK. But you were down there and so you kind 
of--OK.
    Ms. Gardner. Yes, sir.
    Mr. Crawford. I guess I am asking you to speculate here, 
but I have got some concerns about the accuracy of the FEMA 
flood mapping, and how current they are. I am just wondering if 
you could opine on whether or not you think FEMA is the best 
agency to, in fact, engage in flood mapping.
    Ms. Gardner. I will give you my opinion, based on my 
experience. But yes, that would be a lot of speculation. I have 
not personally looked at the flood maps for that impacted area, 
so that is another piece that I am not aware of.
    I will tell you that FEMA has played an active role, and 
they engage actively other partners, such as the National 
Weather Service and other partners that deal with flooding on a 
regular basis. And because they are used to doing that, I don't 
see a reason to change that process, because we have seen it, 
and it has worked in our communities. We do not flood in the 
city of Richardson, because of mitigation efforts that we have 
taken in the past. Not to say we never will, but we do not see 
the same flooding issues and we have used those maps.
    Mr. Crawford. Let me ask Mr. Paulison, because you have 
been a former FEMA Administrator, correct?
    Mr. Paulison. Yes, sir.
    Mr. Crawford. So would you be able to speak to whether or 
not statutorily every 5 years that is required by FEMA to 
update flood maps?
    Mr. Paulison. Yeah. I can't speak about the 5-year. I know 
that when I was the FEMA Administrator, we had started doing 
LIDAR [light detection and ranging] flood mapping. We started 
in the eastern part of the United States, and I know North 
Carolina was one of the first States we started. I am not sure 
how far they got, how far they have gotten so far, but I know 
that FEMA had started that process of trying to do the entire 
country to get more accurate flood maps.
    Mr. Crawford. OK. Well, I appreciate you all being here 
today. And I think I am probably going to have to submit my 
questions for the record for someone else in your Agency to be 
able to answer, but I appreciate your cooperation. Thank you.
    Mr. Byard. Yes, sir.
    Mr. Barletta. Thank you, Mr. Crawford. The Chair recognizes 
Mr. DeFazio for 5 minutes.
    Mr. DeFazio. Thanks, Mr. Chairman.
    Just back to the line of questioning by the subcommittee 
ranking member. I had asked similar questions at an earlier 
hearing. And what we have is a contradiction here. The two 
contractors claim that FEMA reviewed the contracts, and 
actually signed off on excluding oversight. That has been 
denied by FEMA, and again today.
    And so, actually, the inspector general is going to try and 
get to the bottom of this, how these rather fishy contracts 
were entered into and what role FEMA played. But we can't 
resolve that today until we have the IG report. So let's go to 
some issues we might be able to resolve.
    Mr. Byard, Ranking Member Titus and I just recently sent 
the Administrator a letter expressing concern about your 
personnel, your reservists for emergencies. Your own standards 
say that you should have 10,928 reservists. You had 6,749 on 
call last year, and you still have 2,383 deployed. So that 
seems to leave us with something around 4,300 reservists. How 
are you going to deal with that issue this year?
    Mr. Byard. You know, sir, that is a very good question. And 
as we outlined in our after action, we faced, you know, 
personnel shortages in 2017. You know, if you go back, the 
Agency faced personnel shortages in 2016, 2015, 2014, 2013, 
2012, 2010. You can go back. And we are going to face personnel 
shortages in 2019. So how do we do that? How do we accomplish 
our mission without coming and saying, we need more FEMA 
employees?
    Several things that we are doing in the recommendation that 
affect us. First of all, is changing our national-level 
doctrine and revising the National Response Framework. What 
that would do for us as a country, it puts more players at the 
table so that the resources and the personnel we have, we can 
better utilize those, by including the private sector in what 
we do daily, in our deliberate planning, in our operational 
planning, by incorporating our critical infrastructure nodes, 
our 16 critical infrastructure nodes, and then cross-sector 
planning with those so that, you know, if a problem hits, we 
don't hit one bucket. We task organize around the problem.
    Now, we are hiring in critical areas. We are hiring in 
logistics. Also, as the report identified, we had issues with 
the last-mile logistics, specifically in the Commonwealth of 
Puerto Rico. So we will have teams that can get on the ground 
anywhere, not just in the Commonwealth, and help in the last-
mile logistics. For example, in Texas, very robust capabilities 
on that end from the State and local side of the thing, so we 
didn't have that same issue.
    The other thing we have got to do is as you look to the 
left or right, our best emergency managers, they don't wear a 
FEMA shirt. They are our State and local partners. We have the 
system, as you probably are aware of, the Emergency Management 
Assistance Compact, and from the State, I am from State 
emergency management, I have done that, I have assisted States 
and I have brought in States.
    But when we talk about a national catastrophe and similar 
to what we saw in 2017, we need the ability to also rally those 
resources, those well-trained professionals, and put those 
resources to use. So that will increase our staffing also. And 
we are doing that through what we call the National 
Qualification System. And we feel like we are going to have 
great buy-in from our State and local partners.
    I personally did that in 2012 when Hurricane Sandy hit. 
FEMA contacted me, and I led a team of eight from the State of 
Alabama under FEMA's direction to help out the efforts in New 
York City. Not only does that benefit us at the Federal level, 
you bring those lessons learned back to your State and local 
jurisdictions so you better the Nation.
    So we have to look at--you know, in a perfect world, I 
would love to have 20,000 reservists ready to go right now. And 
every other Federal agency that is probably sitting in front of 
you would say they would love to have, you know, X amount of 
people.
    But the reality of it is we have to look outside our 
traditional means. You know, we talk about State and local 
governments, and we talk about mitigation, but that is not 
working. So how do we do things better? We have got to----
    Mr. DeFazio. Wasn't there concern, and particularly in the 
case of Puerto Rico, about reimbursement to the State and 
locals if they provided mutual aid?
    Mr. Byard. You know, there may have been. Again, but how 
does FEMA get involved in that? Let me tell you how we did get 
involved in that. We expedited what we call category B under 
the public assistance that would reimburse the Commonwealth to 
do that type of payment. We expedited that. That was our 
priority, at the time, obligation to the Commonwealth. So there 
were concerns, but, again, that is a question better asked to 
the Commonwealth or to others.
    To combat that, though, what we have done in 2018, we have 
hired over 1,500 local hires on the island. And they are FEMA 
employees. They are going through the National Qualification 
System now. We have had very robust exercises. We have over 
4,600 staff on the ground. We have people embedded with every 
municipality.
    We have done a tremendous amount of effort from 2017, 
response-wise, into 2018; and we put that to the test, as I 
believe somebody mentioned, with Tropical Storm Beryl, where we 
could take that recovery operation and quickly turn that 
machine into a response organization in about 14 hours.
    We have increased a number of commodities fivefold in water 
and MREs. Generators are currently still connected to critical 
infrastructure. We know we are going to lose power in the 
storm, but we will be able to power emergency power to those 
critical facilities.
    Mr. DeFazio. OK. Well, thank you. My time has expired. I 
was going to ask the Corps regarding the removal of the very 
large generators that they delivered, if I could, Mr. Chairman. 
I don't know if they have actually been removed or just 
planning to remove them. I guess I would question why you would 
do that now with the beginning of the hurricane season, since 
their grid still seems somewhat fragile.
    Mr. Alexander. Sir, there were three what we call mega-
generators rented and brought to the territory, two in Palo 
Seco, to help stabilize the grid there. They remain in 
operation today. There are no plans for immediate 
demobilization.
    Mr. DeFazio. OK, good. That may have been bad information 
we received.
    Mr. Alexander. But there is one, sir, in the community of 
Yabucoa that will be demobilized effective midnight tomorrow. 
And that is a decision that was reached, based upon assessment 
by PREPA of the status of the grid in that area, and it was 
concurred. That decision to demobilize was collaborated and 
concurred by the Unified Coordination Group, which has a 
representative from the Governor's office there who concurred 
with that.
    Mr. DeFazio. OK. Well, hopefully PREPA is better managed 
now than it was before.
    Thank you, Mr. Chairman.
    Mr. Barletta. Thank you.
    The Chair recognizes Mr. Mast for 5 minutes.
    Mr. Mast. Thank you, Chairman.
    Thank you, Mr. Alexander, for representing the Corps of 
Engineers at this hearing on hurricane preparedness. My 
community dreads hurricane season, not just because of 
impending storms, but because year after year, as a result of 
the risk management that surrounds hurricane preparedness, 
through the Corps of Engineers water is discharged out of Lake 
Okeechobee, hundreds of billions of gallons of water, often 
laden with microcystin algae, cyanobacteria, blue-green algae. 
Right now, the water being released from Lake Okeechobee into 
my community has 15 times greater the level of microcystin 
algae, which leads to a number of human health hazards, 15 
times greater than what any human being should be exposed to. 
This is all in the aim of risk management for the dike 
surrounding Lake Okeechobee.
    So I want to ask you some pointed questions on the risk 
management of the water levels of Lake Okeechobee, the risk 
management of the dike, the potentially failing dike around 
Lake Okeechobee.
    What is the level of water in inches, feet, that Lake 
Okeechobee should be at going into hurricane season so that 
there is not a risk of dike failure?
    Mr. Alexander. Mr. Mast, thank you for the question. Going 
into the beginning of wet season, we strive to maintain a lake 
level approximately 12\1/2\ feet.
    Mr. Mast. Twelve and a half feet is the maximum level that 
you want going into hurricane season?
    Mr. Alexander. Yes, sir. And then up to 15\1/2\ feet 
beginning of the dry season.
    Mr. Mast. And is that for strictly the purpose of risk 
management, or are you keeping that 12 to 15\1/2\ feet on the 
lake for other purposes?
    Mr. Alexander. That is a combination of trying to meet 
other purposes and balance the needs associated with 
environmental, you know, water----
    Mr. Mast. Then you gave me an answer to a question I didn't 
ask. I asked you what is the level on the lake for that lake, 
that dike to be safe from dike failure? Not for other concerns, 
not for drinking water, not for agricultural irrigation, not 
for agreements with the Tribes around the lake. What level do 
you need the lake at so there is no risk of dike failure with 
the Herbert Hoover Dike?
    Mr. Alexander. As I said, we go into hurricane season 
attempting to reach a level no less than 12\1/2\ feet.
    Mr. Mast. Now, getting into those other concerns--I know I 
sent you these questions in advance so that I would have the 
answers given to me on this--how much water do you keep on the 
lake for these other concerns that you talked about? How much 
water in inches or feet is kept on Lake Okeechobee for the 
purpose of agreements with the Tribes?
    Mr. Alexander. I will give you the bottom line upfront. 
Lake Okeechobee is not managed like a Corps flood control 
reservoir. The Herbert Hoover Dike, essentially, it is a levee 
system that encompasses and contains a prior free-flowing lake. 
The specific question on inches of water is not applicable in 
the management of Lake Okeechobee.
    Mr. Mast. Sir, Lake Okeechobee and the Corps of Engineers 
absolutely keep track of every inch of water that goes on Lake 
Okeechobee. Earlier in the season, the Caloosahatchee 
municipalities were requesting 1,000 cubic feet per second for 
several months, hoping to get about an inch of water off Lake 
Okeechobee, because they needed that for the ecology of their 
waterway. They were denied.
    The Corps of Engineers has a call every single week where 
they pay attention to exactly the amount of inches or quarter 
inches of level of change on Lake Okeechobee. So absolutely, 
Lake Okeechobee is managed and regulated in that way.
    So let me ask you a different one. How much water is kept 
on Lake Okeechobee, in the form of what is requested by 
consumptive use permits for agriculture? How many inches, how 
many feet of water are kept on Lake Okeechobee for that 
purpose?
    Mr. Alexander. Well, I would like to state that the Corps 
of Engineers does keep track of probably every inch of water in 
that reservoir. That being said, though, we don't have specific 
allocations for those specific purposes in the consumptive use 
agreements. Again, it is a balance between this 12\1/2\ and 
15\1/2\ feet. And it is managed as a system along with some 
other, I guess, laws that exist down there with respect to the 
consumptive use, the Lake Okeechobee Surface Area water input 
rules. So we have to balance the multiple purposes and 
potential uses----
    Mr. Mast. So in balancing those purposes, sir, I had a 
conversation just a couple weeks back with the South Florida 
Water Management District. I asked them about the ecology of 
the lake. They said the optimum level of the lake for its 
ecology is, at minimum, 11 feet. And I asked them, OK, if the 
water level on the lake should not be below 11 feet, if 
irrigation, or those that need water, agricultural irrigation 
or those that need drinking water or somebody else needed water 
for those concerns, if the lake was at 11 feet, would you still 
send the water to the irrigation canals for agriculture? The 
answer was yes. If it was at 10 feet, would you still send the 
water to the canals for agricultural irrigation? The answer was 
yes. If it was at 9 feet? The answer is yes. If the lake was at 
8 feet, a dangerously low level, the answer was yes, they would 
still get their water for those purposes.
    So is it right that you keep the water at this higher level 
when my community is destroyed because this water is at that 
higher level when you are still going to send the water to 
these other areas for their purposes, even if the water is down 
as low as 8 feet on Lake Okeechobee?
    Mr. Alexander. Sir, I have not been privy to any of those 
conversations that you have had. What I will say is I know that 
our Jacksonville District is engaged with the community, is 
very engaged with you.
    I am not an expert on Lake Okeechobee and the releases. But 
what I will offer is an engagement of you, Colonel Jason Kirk, 
the district commander, and anybody from his staff or here at 
headquarters who could walk you through in detail how we manage 
the lake and then what the risks are at the various levels.
    Mr. Mast. Thank you for the answers to your question.
    Mr. Chairman, I yield back and I do request a second round 
of questioning.
    Mr. Barletta. Thank you.
    The Chair recognizes Ms. Plaskett for 5 minutes.
    Ms. Plaskett. Thank you very much, Mr. Chairman, and thank 
the ranking member for having this hearing.
    This is, of course, very important to me, representing the 
Virgin Islands, after we have gone through the 2017 hurricane 
season, are beginning the 2018 hurricane season, and are still 
looking to ways in which not just to recover, but to begin the 
rebuilding.
    As some of you are probably unaware, for this entire school 
year, children in the Virgin Islands have operated on a 4-hour 
shift system, because so many of our public schools were 
compromised. So the children had to share facilities and only 
participated in school curricular activities for 4 hours during 
the day.
    Most of our dialysis and inpatient individuals are still 
off island, because our hospitals have been compromised so much 
from the hurricane that they have been unable to be at home for 
those services. But I want to thank FEMA and the Army Corps, 
Coast Guard, and so many other Federal agencies that were there 
on the ground and are providing assistance.
    I know that this action report really provides a blueprint 
on how to have improvements and make things better, and I am 
trusting that FEMA and the other agencies are really taking 
those things to heart. You know, the sign of maturity is 
recognizing when you have done things wrong and learning from 
them and just moving forward.
    But one of the things I wanted to ask these individuals 
about, in particular, were some of the issues that we still 
have. On April 20th, the Governor of the Virgin Islands, 
Kenneth Mapp, sent a letter to Administrator Brock Long, which 
I'd ask unanimous consent to submit into the record, requesting 
support of some of the issues that we have.
    Without objection, can that be admitted into the record?
    Mr. Barletta. Yes, it may.

    [The letter is on pages 129-134.]

    Ms. Plaskett. Thank you.
    One of the things we are concerned about that I would like 
to bring to your attention, Mr. Byard, as well as Mr. 
Alexander, if you can assist in answering this question, is 
with regard to debris removal. The U.S. Army Corps is working 
under FEMA mission assignment to remove all of the vegetative 
C&D and marine debris from the territory. This work will be 
completed in September. However, large stockpiles of debris 
remaining, with hurricane season almost upon us again, is very 
concerning. I know that there has been some discussion about 
bidding this out and ensuring where it can be kept.
    We were given an extension of the local share on this, but 
due to the Army Corps, a bid protest that was done to the Army 
Corps, which they believe will be overcome, debris will not be 
removed until the end of December. If no extension that long, 
the Government of the Virgin Islands will be hit with a 10 
percent local cost share.
    So my question is, Mr. Byard, will FEMA support 100 percent 
Federal share extension, since the delay is not in the control 
of the Government of the Virgin Islands?
    Mr. Byard. Ma'am, that is a good question. As you know, 
debris has been, you know, a difficult task in the Virgin 
Islands. I was down probably a month or so back. And you are 
right, there is still a lot of work to do there.
    What we will do is definitely work with the Governor and, 
you know, once--and if we have received a request, I don't want 
to sound ignorant to that, it will be working itself out. If we 
have not received a request, I will be definitely looking on 
that. I spoke to Bill Vogel yesterday, the FCO, Federal 
Coordinating Officer.
    Ms. Plaskett. Right.
    Mr. Byard. And I spoke to also Mike Byrne, who will be 
going over to work----
    Ms. Plaskett. So you will work with the Governor and try 
and do that if it is necessary, because this is outside of our 
control and, of course, you know, any cost share for us is 
really a great burden.
    Mr. Byard. Yes, ma'am.
    Ms. Plaskett. The second question I have is with regard to 
the STEP [Sheltering and Temporary Essential Power] program. 
You know, the STEP program is one which can be supportive of 
individuals. This is the program that allows temporary repair 
of homes in the Virgin Islands.
    I know that there was some back-and-forth with regard to 
the STEP program, because the limit initially for the STEP 
program was $20,000. However, the Blue Roof program we know ran 
an average about $25,000 per roof. We understand that that has 
been increased. The STEP is now at $25,000. I know that the 
Governor of the Virgin Islands has a request in for $35,000 per 
home. Are you willing to support that request at this time?
    Mr. Byard. Well, what I do know is that we have authorized 
the use of the STEP program for any home in the territory with 
a ``blue roof.''
    Ms. Plaskett. OK. And would that include--there is one 
thing that is really important to us. You did allow--the STEP 
was used for rental properties in New York City after Hurricane 
Sandy.
    Mr. Byard. Yes, ma'am.
    Ms. Plaskett. But to date, you have refused to allow that 
for low-income renters in the Virgin Islands. And some of those 
do, in fact, have ``blue roofs'' on them. Will you be willing 
to reconsider that?
    Mr. Byard. What I would like to do is get back to you, 
Representative. And the reason I say that is we have the Multi-
Family Lease and Repair program under the Individual Assistance 
Program. I would like to see where that program is when it 
deals with multifamily facilities, and also the STEP.
    So I will have my staff definitely take that for action, 
and if it is OK with you to get back with you, because I want 
to make sure I give you a comprehensive answer on that.
    Ms. Plaskett. Well, I have run out of time, but since you 
have said you are going to get back with me on the record, I am 
going to hold you to come into my office.
    Mr. Byard. Yes, ma'am.
    Ms. Plaskett. It has been difficult to get FEMA. Bill Vogel 
has been really good about being there on the ground and 
answering any questions that we have, but I have had a little 
difficulty in getting individuals from here at headquarters to 
come into my office and have conversations.
    I know we all have the same interest in mind. And I am not 
trying to be, you know, the bad guy all the time. I really do 
want to see how we can work together and make this better, 
particularly as we are preparing people in the Virgin Islands 
for this new hurricane season.
    And also, I know my time is out, but, Mr. Alexander, I want 
to thank the Army Corps of Engineers for really extending 
themselves and committing to having biweekly meetings with me, 
giving me an update of what they are doing. That has been 
really helpful, and I am very happy for the cooperation and the 
relationship that our office has with them.
    Thank you. I yield back.
    Mr. Barletta. Thank you, Ms. Plaskett.
    Mr. Gallagher.
    Mr. Gallagher. Thank you.
    I apologize for being late. I hope we are going not to 
rehash ground or go over ground that has already been tread. 
But in FEMA's ``After-Action Report''--this is a question for 
Mr. Byard--of the 2017 hurricane season released last week, the 
delivery of food and commodities to Puerto Rico and the Virgin 
Islands was recognized as a major challenge, due to staffing 
shortages and logistical failures.
    Could you explain what happened with regards to commodities 
in 2017, and what adjustments you have made in 2018, 
particularly to address the potential needs of the territories 
should there be another hurricane?
    Mr. Byard. Yes, sir, I will be happy to. So your first 
question was, you know, the 2017 issue. So, you know--and, 
again, as we pointed out in the report, all of our national 
planning, all the deliberate planning we do is built around, 
you know, a three-legged stool, if you will. You have local, 
you have State, and you have Federal Government support, 
specifically when you talk about logistical movements of 
commodities.
    What we quickly found in the Commonwealth is two of those 
legs were not there. And I don't mean that to be disparaging. 
What I mean is, you know, we had a lot of impacted first 
responders were survivors on the Commonwealth.
    So we had the ability to get the commodities to, and there 
were commodities always on the island. We accomplished that. It 
was taking it from the port, for example, and getting it out to 
the more difficult terrain municipalities. We did incident 
action/crisis action planning on the ground. You always do that 
to assess the needs, task, organize and move out. That was 
accomplished. So what are we doing in 2018? As I mentioned 
earlier, you know, one of our targeted hiring initiatives is in 
our logistics. Everything we do is about logistics.
    And so we are hiring more teams or more individuals that 
will staff teams called incident support teams that we can send 
downrange to further expand our footprint for the last-mile 
logistics. Now currently, in the Caribbean, we have about 4,600 
staff, FEMA staff that are doing the recovery mission. They are 
dual-trained to do response.
    So we have staff in each municipality; we have 
communications satellites communication in each municipality; 
we have backup generators already installed in critical 
facilities to include communication towers; we have also done 
logistical exercises, where we had one warehouse going into 
2017, we have five on the island now. Where we had thousands of 
commodities and maybe in water and MREs, we have millions now.
    We have also done exercises with the municipalities where 
we actually moved commodities from the distribution centers out 
into the more rural or difficult terrain municipalities. We did 
that to exercise the movement, but we didn't take the 
commodities back. They are safe, secured, and stored. So we are 
well-positioned from that standpoint in 2018 than we were in 
2017.
    Mr. Gallagher. I appreciate that.
    Administrator Paulison, you have extensive experience as a 
firefighter and a former U.S. Fire Aministrator. What do you 
think is the most important thing we can do as a Nation to curb 
devastating wildfires like the ones we have experienced in 
2017?
    Mr. Paulison. Thank you for that question. I think it goes 
along with the mitigation that we talked about earlier about 
setting aside moneys to--because mitigating from wildfires is 
not any different than mitigating from any other type of 
disaster. It is looking what are the issues, what are the 
risks, and then having enough funding to deal with those risks.
    So I think that we need to--I encourage this committee to 
look very clearly at that 6 percent of predisaster mitigation. 
States like your State of California, all the Western States 
out there are having a very, very difficult time. I mean, we 
have lost so many homes. We have had fatalities out there. We 
have had infrastructure destroyed. We have had water systems 
destroyed, because of wildfires out there and not having the 
right types of materials in place to withstand those types of 
disasters.
    So a State having enough money with predisaster mitigation 
to deal with those types of things, I think, will go a long way 
toward resolving a lot of the issue you just talked about, 
protecting our homes and our businesses from these wildfires.
    Mr. Gallagher. Thank you.
    And I yield the balance of my time.
    Mr. Barletta. Thank you. The Chair recognizes Ms. Norton 
for 5 minutes.
    Ms. Norton. Thank you very much. Mr. Chairman, this is a 
very timely hearing and I will tell you why in a moment.
    This is a question I suppose best addressed to Mr. Byard, 
but also Mr. Alexander, because the question I am asking 
implicates very deeply the Federal presence. With the climate 
change throughout the country, we are seeing increasing 
flooding, that has been alluded to already in this hearing. 
There was sufficient concern about flooding here in the 
Nation's Capital that we have a levee on the mall, that I 
think, Mr. Alexander, the Corps of Engineers was involved with 
as well, to protect the Federal presence.
    Yet in real time, yesterday we had a disastrous flood in 
this region. And nobody who lives here or was here, unless you 
were in the Capitol and didn't have to go out, could have 
missed what happened. And it seems to me it raises questions in 
real time about flood preparedness, even in the area of the 
Nation's Capital.
    A portion of the George Washington Parkway was closed in 
both directions, and to show you just how close or how 
implicated the Capitol is, water poured into at least one Metro 
stop, and that happened to have been Capitol South, the one 
closest to the Capitol of the United States. Everybody, it 
seems to me, ought to wonder is anybody protected in the United 
States if that close to the Capitol itself we could have had 
such a flood.
    So my question really goes to a real test. In the District 
of Columbia, we are very proud. We have built on both 
waterfronts, the southeast waterfront and the southwest 
waterfront. Many, many areas, of course, build on their 
waterfronts. So this question implicates New York and many 
other areas of the United States, because the waterfront is a 
very ripe area for revenue.
    By the way, if you go to the southwest waterfront, we call 
it the Wharf, we finished phase 1, but we are still--and it 
looks like the whole thing is finished, but phase 2 is yet to 
come. We are building on the southeast waterfront called 
Capitol River. And, again, that is ongoing. There will be 
another 10 years of building.
    So I have to ask you, is it safe to build on waterfronts? 
What does FEMA require? What does the Corps of Engineers 
require? What have they required of those who are building on 
the waterfront, to make sure that those areas are not flooded 
with a huge waste to the jurisdictions involved, not to mention 
to the private sector? Can anybody just build on the 
waterfront? What do you have to do to build on a waterfront in 
the United States today? I mean, I am not--the waterfront, I 
have no information that the waterfront was implicated, but I 
would be a fool to sit here and say that everything is fine 
unless you tell me that there are either regulations or 
safeguards that have been required, or are required, for all 
who build on the waterfront. And I would like to hear from both 
of you, since the Federal presence is involved. Mr. Byard.
    Mr. Byard. Yes, ma'am. You know, a majority of our 
population, as you well know, lives on a waterfront. You know, 
when I was with the State of Alabama, the Governor asked me at 
the time, you know, how do we help hurricane evacuations? And I 
jokingly said, you know, ban air conditioning 50 miles from the 
coast and people will stop coming. Obviously, the economic 
impacts are very, very good.
    Ms. Norton. You have to build on a waterfront.
    Mr. Byard. Exactly. So from a FEMA perspective, I would 
first look at initiatives that were passed by the committee, 
you know, the incentive to build stronger and, excuse me, the 
bipartisan----
    Ms. Norton. So you are telling me that when building occurs 
on the waterfront--I don't know what you mean by incentives--
those who build understand either that they are required or 
there are economic incentives to do so?
    Mr. Byard. So what I am saying, and let me rephrase that, 
part of the authorities that were granted in the Bipartisan 
Budget Act that was passed was the incentive to build at a more 
resilient rate. FEMA has no authority necessarily over what is 
built. That is a local and State issue.
    I would also, you know, as we have a working group, just 
look at----
    Ms. Norton. Of course, you have mitigation authority.
    Mr. Byard. We have mitigation authority, again, working 
with an eligible applicant. There is not mitigation authority 
that we can direct or tell, you know, a local business how to 
build. You know, we would work with the district in that case 
to see what are the local codes of the district. I don't know 
that. You know, FEMA is not in the position to know that. But, 
you know, I would--and I will let the Corps talk about----
    Ms. Norton. Mr. Alexander.
    Mr. Alexander. Yes, ma'am. I will be quick. You know, as 
Mr. Byard just said, I mean, the Corps has no authority and 
oversight on the District or any State or territory.
    Ms. Norton. I can't hear you, sir.
    Mr. Alexander. As Mr. Byard just said, the Corps also has 
no authority under which it can direct the District or any 
State or locality on what they can build or what they cannot 
build. But the Corps does urge local governments to, you know, 
enforce their zoning, and certainly enforce building to 
established codes.
    And if you are going to build, you know, on the waterfront, 
whether it is riverine or coastal, you know, ensure you are out 
of the flood plain. You may have to do that by a standoff or 
through elevation. It is the major reason that we do shore 
protection projects along the Nation's beaches. It is not 
primarily for recreation; it is for the protection of 
infrastructure and the economy.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Barletta. Thank you.
    We will now begin a second round of questions. I would like 
to remind all Members, today is the annual hot dog lunch in 
Rayburn, so we will hold everyone strictly to 5 minutes.
    In February, as part of the Bipartisan Budget Act of 2018, 
Congress enacted a provision that will allow FEMA to 
incentivize mitigation through the increase of the Federal cost 
share of disaster assistance.
    Mr. Byard, what is the status of FEMA's implementation of 
these provisions?
    Mr. Byard. Yes, sir. We have got a working group that is 
currently convened. It is looking at how do we best implement. 
And as you heard Administrator Paulison, you know, say earlier, 
you know, we need to look at a pilot program, so it will allow 
us flexibility on how we do that.
    We want to take full advantage of the authority that 
Congress, you know, granted us in that provision. It fits the 
Administrator's strategic plan. So, you know, definitely we are 
looking at that. But we want to do it right to start with so 
that we have the intent of the provision as laid out by the 
act.
    Mr. Barletta. Thank you.
    Administrator Paulison, what principles do you think should 
be driving FEMA's development of these mitigation incentives?
    Mr. Paulison. Thank you. I think the most important thing 
is it is not a giveaway program, that the States have to do 
certain things to qualify for that extra money; have a 
statewide building plan in place; have a rock-solid mitigation 
plan; have done an assessment of the risk and put those 
mitigation dollars towards alleviating those risks.
    I think we need to make sure that we are not wasting these 
taxpayer dollars, but we are actually giving the dollars to 
States who have done things to reduce cost. You know, we had 
$200 billion last year. If we have put strong mitigation in 
place for 2018, perhaps next year it won't be $200 billion with 
the same amount of storm.
    So, you know, our conversation with FEMA is, you know, they 
are doing a great job putting this thing, getting this thing 
going, but let's make sure that the States do what is necessary 
to mitigate the disaster cost. Otherwise, we are just wasting 
our money.
    Mr. Barletta. Mr. Sheehan and Ms. Gardner, what do you 
think are the greatest challenges facing State and local 
governments related to a cost share adjustment program designed 
to incentivize mitigation?
    Mr. Sheehan. Predictability of funding streams, I think, is 
a kind of complicating factor for us. So as we look to 
incentivize mitigation programs or projects, we need to be able 
to plan. Mitigation measures take a long time to put into 
place. And I think anything--I know one of Administrator Long's 
priorities is to simplify or take the complexity out of FEMA. 
Anything that we can do to reduce the complexity and build 
predictability into funding streams will help us to be better 
mitigators.
    Ms. Gardner. And to build on that, we definitely share that 
same concept. The actions that Mr. Paulison and Mr. Sheehan 
discussed are all challenges that we face; but from the State 
and local perspective, the more you do in policy to add 
incentives, it just helps us to reiterate the importance of 
those mitigation steps, and it gives us the leverage we need to 
do those mitigation steps, even though they are lengthy and 
even though they are costly, because there are other things to 
spend that money on. And the more incentives that are there at 
all levels and, as I mentioned earlier, directly to private-
sector partners and citizens would also be a benefit. The more 
incentives that are there just gives us more leverage to back 
up those mitigation projects, and hopefully do more in the 
future.
    Mr. Barletta. Thank you.
    The Chair recognizes Ms. Titus for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman.
    I would just like to go back to some questions I was asking 
earlier. As you noted in your kind of generalized answer, I had 
some specific questions. I want to ask you one more for the 
record.
    Can you, very specifically, provide to the subcommittee a 
detailed justification or the project worksheets under which 
PREPA is requesting reimbursement for power restoration in 
Puerto Rico? Can you give us that information?
    Mr. Byard. So I just want to make sure. You are asking for 
the project worksheets that FEMA is working with PREPA on for 
the remaining category B work for that?
    Ms. Titus. For all of it, for the prior and the remaining. 
You can give us the----
    Mr. Byard. The remaining, you know, as we close on the 
emergency work, you know, the permanent restoration work, which 
is two different categories of work, as you well know, I am 
sure, is done under a different authority, under the Stafford 
Act, but under section 428. So the estimates are not there. We 
are not there for the--you know, there is no forward project 
worksheet, if you will, for the remaining work, you know.
    Ms. Titus. Can you give us an accounting for what they did 
that you are paying them back for? Very simple, commonsense 
terms, things people understand, can you give us that? Will you 
give us that?
    Mr. Byard. Of course. Yes.
    Ms. Titus. When will we be getting it?
    Mr. Byard. I will check with our counsel to make sure, but 
we have nothing to hide. We are transparent.
    Ms. Titus. It should be public record, I would think.
    Mr. Byard. It should be, yes, ma'am.
    Ms. Titus. OK, great. Thank you. We will look forward to 
getting it.
    Then I would like to go back to Mr. Alexander to continue a 
question that was asked by Mr. DeFazio. I guess we have 
contradictory information, but in a letter that we got from 
FEMA that was dated last night, it says that the two mega-
generators at the Palo Seco Power Plant will be demobilized on 
August 18. Is that not accurate?
    Mr. Alexander. Ma'am, we are working with FEMA to extend 
the mission assignment for several months, I believe through, 
potentially, mid-October. It is the Yabucoa Power Plant that 
will be demobilized tomorrow evening.
    Ms. Titus. And that was to go offline July 18, but you are 
trying to extend the other two. You didn't make that very clear 
in your answer to Mr. DeFazio.
    Mr. Alexander. I apologize if I didn't. There are three 
mega-generators we brought in, two at Palo Seco, gas turbine 
engines. The intent now is they currently are to--that mission 
assignment ends, I believe it is 18 August. Right now on the 
island, the Federal Coordinating Officer is working with the 
Corps and Puerto Rico on potentially extending that mission 
assignment for several more months into the fall.
    Ms. Titus. OK. But if that doesn't work out, then the 
deadline is August 18, right?
    Mr. Alexander. That would not be our decision, ma'am. The 
current mission assignment ends 18 August for Palo Seco. The 
Yabucoa generator will be demobilized tomorrow evening at 
midnight.
    Ms. Titus. OK. I just wanted to be sure that was clear, 
because it sounded like you weren't going to demobilize the 
other two, that there wasn't any question about it.
    Also, I would now like to go back to the point we were 
making about animals. We know that people are much more likely 
to leave a disaster area if they can take their pets, or they 
know what is going to happen to them. But we saw in the last 
disaster, I think it is Harvey, pet shelters--Ms. Gardner, I am 
sure you are well aware of this--all over Texas were taking in 
rescued animals. They used FEMA resources to do that, yet there 
is little or no reporting on how those funds were used.
    That is why Mrs. Comstock and I introduced a bipartisan 
bill called the PET AID [Pet Emergency Transparency and 
Accountability in Disasters] Act, just to do minimum reporting 
back to FEMA about how resources are used, how pets are 
reunited, how they are cared for. It just seems common sense.
    I would ask the local and the State emergency management 
folks what they think about that bill, if they have any 
suggestions for it, if they can help us work to get that 
passed, wouldn't it make their job easier and also be more 
accountability? Ms. Gardner or Mr. Sheehan?
    Ms. Gardner. At the local level, it would help with the 
accountability and would also help, again, just like the other, 
with leveraging and helping us to reiterate the need, because 
apathy is the biggest challenge that we have with all citizens. 
It takes about seven warning messages to get a person to 
actually take an action to protect themselves. And animals just 
accentuate that problem, because they are not going to leave 
their animals behind.
    So the more we can do on the front end to explain what is 
going to happen, what that process is going to look like and 
that their animals will be taken care of, the more willing they 
are going to be to actually evacuate when they are asked to and 
do those things proactively instead of waiting until they are 
already impacted.
    Mr. Sheehan. Ma'am, we do know that people are less likely 
to evacuate or there are additional complications if people 
aren't able to take their pets with them. It does present a 
logistical challenge when people bring pets. You know, our idea 
of pets usually is dogs, cats, and perhaps birds, but other 
people, our countrymen sometimes have other ideas on what are 
pets and those things require special attention.
    But I do think we have a lack of data around this, and that 
reporting would be helpful for us in helping to manage it. So 
if we are going to continue to manage it--we need to so that 
people can evacuate--then we need the data.
    Ms. Titus. That would be great. Thank you.
    Mr. Barletta. The Chair recognizes Mr. Mast for 5 minutes.
    Mr. Mast. Thank you, Chairman.
    Mr. Alexander, let's get back to risk management of Lake 
Okeechobee during hurricane season. The Corps of Engineers 
recently said when they were announcing the releases of water 
to the Treasure Coast of Florida from Lake Okeechobee, that in 
their risk calculation was the threat of life to 36,000 people 
south of Lake Okeechobee. That is something that goes into that 
risk assessment matrix. Knowing the situation there, 1 inch of 
water, 6 inches of water, 1 foot of water, that can be the 
difference of failure or not failure on the 730-square-mile 
Lake Okeechobee during a storm.
    So, again, I point out the Corps of Engineers absolutely 
manages and pays attention to every inch of water that flows 
into Lake Okeechobee, sits on Lake Okeechobee, evaporates off 
of Lake Okeechobee, or is discharged out of Lake Okeechobee 
into some other body of water that it probably has no business 
being in. The Corps of Engineers pays attention to it.
    Now, I want to ask again, you do not have the numbers for 
how much water is maintained on Lake Okeechobee for the purpose 
of drinking water?
    Mr. Alexander. Sir, I do not believe I ever said that the 
Corps doesn't manage it and knows exactly how much water is in 
the lake itself. That being said, again, Lake Okeechobee is not 
managed like our flood control multipurpose reservoir. We work 
on a balance, again, between 12\1/2\ and 15\1/2\ feet. And that 
balance is to meet multiple purposes, environmental, water 
supply, water control, flood, navigation. But at the end of the 
day, you know, we have to place a premium on risk.
    Mr. Mast. At the end of the day, it is risk. And if you are 
keeping more water on the lake than what should be on there, 
then that puts at risk, according to the Corps of Engineers, 
36,000 people south of Lake Okeechobee.
    So I am formally requesting from the Corps of Engineers 
that you do tell me exactly how much water you keep, in terms 
of inches or feet, on Lake Okeechobee, or in terms of gallons, 
for the purpose of agricultural irrigation, for the purpose of 
drinking water in the communities, for the purpose of the 
agreements with the Tribes. What are the amounts, through those 
consumptive use permits, that is kept on the lake? Because the 
Corps of Engineers needs to manage how much water is on the 
lake, through your own admittance, for all of those purposes, 
in addition to risk management, in addition to a number of 
other things. How much water for each of those? I am making a 
formal request to the Corps of Engineers to get those answers 
to me.
    I want to move to one other question here before my time is 
expired. I recently sent a letter to the Corps of Engineers 
asking, in the name of hurricane preparation and risk 
management, this water that is being released into my community 
out of Lake Okeechobee, the Corps does have discretion based 
upon pollution concerns that could be in the water, and I asked 
a specific question: What level of pollution or toxins of water 
in Lake Okeechobee would be considered too great of a level 
where the Corps of Engineers would say, we cannot discharge 
water to these epicenters of human population, the Treasure 
Coast of Florida or the west coast of Florida? What level of 
toxin in the water would be considered too great? And the 
answer was entirely avoided.
    So I want to ask you, if there was cyanide in the water, 
would the Corps of Engineers cease discharging water to these 
epicenters of human population?
    Mr. Alexander. Sir, I am not avoiding a question. I don't 
have the answer. You know, again, I am offering an engagement, 
whether it is here in DC or down in your district with the 
district leadership, with experts here at headquarters, Army 
Corps, and to discuss these matters. I am not an expert in Lake 
Okeechobee.
    I did receive your questions in advance, and if I had 
specifics as to how many inches for this or that, I would have 
provided it today.
    Mr. Mast. If there were lead in the water, would the Corps 
of Engineers cease discharging water to these epicenters of 
human population?
    Mr. Alexander. Sir, I cannot answer that. I don't know what 
the tolerable levels are.
    Mr. Mast. If there were arsenic in the water, would the 
Corps of Engineers cease discharging water to my community, an 
epicenter of human population that is not naturally connected 
to Lake Okeechobee?
    The Corps of Engineers is discharging the water as a result 
of risk management, hurricane preparedness; that if they are 
discharging water right now, clearly enough water was not 
discharged earlier in the season.
    Mr. Alexander. Again, sir, I don't have the specific 
answers. I have to believe, though, that, you know, there are 
other regulating agencies who do pay attention to what those 
toxic levels are, and I am confident that they work hand in 
hand with the Corps as we look at those releases.
    But, again, I would offer a detailed laydown with you to 
discuss these matters, and it probably needs to involve 
officials beyond the Corps itself.
    Mr. Mast. Thank you for the second round of questioning, 
Mr. Chairman. I yield back.
    Mr. Barletta. Thank you. And thank you all for your 
testimony. Your comments have been helpful to today's 
discussion. If there are no further questions, I would ask 
unanimous consent that the record of today's hearing remain 
open until such time as witnesses have provided answers to any 
questions that may be submitted to them in writing, and 
unanimous consent that the record remain open for 15 days for 
any additional comments and information submitted by Members or 
witnesses to be included in the record of today's hearing. 
Without objection, so ordered.
    I would like to thank our witnesses, again, for their 
testimony today. If no other Members have anything to add, the 
subcommittee stands adjourned.
    [Whereupon, at 11:51 a.m., the subcommittee was adjourned.]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
   
</pre></body></html>
